App. 1
APPENDIX A
QUANTUM RESOURCES
MANAGEMENT, L.L.C.,
AND MILAGRO
PRODUCING, L.L.C.

NO. 18-CA-589

VERSUS

COURT OF APPEAL

PIRATE LAKE OIL CORP,
ETAL

STATE OF LOUISIANA

FIFTH CIRCUIT

ON APPEAL FROM THE
TWENTY-FOURTH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON, STATE OF LOUISIANA
NO. 686-816, DIVISION “M”
HONORABLE HENRY G. SULLIVAN, JR.,
JUDGE PRESIDING
January 30, 2019
HANS J. LILJEBERG
JUDGE
Panel composed of Judges Marc E. Johnson,
Robert A. Chaisson, and Hans J. Liljeberg
MOTION TO DISMISS GRANTED: APPEAL DIS­
MISSED
HJL
MEJ
RAC

App. 2
COUNSEL FOR DEFENDANT/APPELLEE,
ALLEN KENT JONES
R. Lee Eddy, III
COUNSEL FOR DEFENDANT/APPELLANT,
PATRICK KENT LINDSEY JONES
Patrick Kent Lindsey Jones
LILJEBERG, J.
In this concursus proceeding, Patrick Kent Lind­
sey Jones appeals the trial court’s June 18, 2018 judg­
ment, ordering the Clerk of Court to disburse the funds
remaining in the registry of the court in this proceed­
ing to Allen Kent Jones. Allen has filed a Motion to Dis­
miss the appeal, arguing that the judgment at issue is
interlocutory and thus, non-appealable. Finding that
the judgment at issue is indeed interlocutory, we grant
the motion and dismiss this appeal.
This lawsuit was filed as a concursus proceed­
ing concerning the ownership and disbursement of
revenues from oil and gas producing wells.1 Alien
Kent Jones and his children, including Patrick Kent
Lindsey Jones, were among several parties named as
defendants-in-concursus in this matter, after they
were identified as possibly having an ownership in­
terest in portions of the property upon which the
producing wells were situated. Concursus plaintiffs,
Quantum Resources Management, L.L.C. and Milagro
Producing, L.L.C., deposited production proceeds from
1 Some of the pertinent facts set forth herein were obtained
from this Court’s decision in Quantum Resources Management,
L.L.C., et al. v. Pirate Lake Oil Corp, et al., infra.

App. 3
the producing wells attributable to the disputed prop­
erty into the registry of the court.
The property at issue in this matter was owned by
Elizabeth Jones as her separate property until her
death in 1989. Although she executed a testament be­
queathing all of her property to her surviving spouse,
Allen Kent Jones, Louisiana law provided at the time
of her death that all children of the deceased, regard­
less of age, were forced heirs. In a succession proceed­
ing, pursuant to the laws of forced heirship, Allen was
placed into possession of half of Elizabeth’s interest in
and to the subject property in full ownership, and the
Jones’ three children were placed into possession of the
remaining half of her interest in and to the subject
property as naked owners, subject to a lifetime usu­
fruct in favor of Allen. Based on their interests in the
subject property, Allen, Patrick, and others have as­
serted claims to portions of the funds deposited into
the registry of the court.
In Quantum Resources Management, L.L.C., et al.
v. Pirate Lake Oil Corp, et al., 12-256 (La. App. 5 Cir.
11/13/12), 105 So.3d 867, writ denied, 13-84 (La.
3/8/13), 109 So.3d 361, this Court was called on to de­
termine whether Allen Jones, as usufructuary of the
subject property, was entitled to the portion of proceeds
in the registry of the court attributable to his children’s
naked ownership interest in and to the subject prop­
erty. This Court set forth the pertinent facts involved
in the dispute, analyzed the applicable law, and ulti­
mately determined that Allen Jones, “as usufructuary,
is entitled to the mineral proceeds deposited into the

App. 4
registry of the court in proportion to the naked owners’
interest in and to the subject property.” Quantum Re­
sources Management, L.L.C., 105 So.3d at 874.
After several years and various legal filings, on
June 13, 2018, Allen filed a Motion to Disburse Funds
in the Registry of the Court. On June 18,2018, the trial
court signed a judgment ordering the Clerk of Court
for the 24th Judicial District Court to disburse all
funds remaining in the registry of the court in this pro­
ceeding to Allen Kent Jones, pursuant to this Court’s
decision in Quantum Resources Management, L.L.C.,
supra, which confirmed that Allen is entitled to the re­
maining mineral proceeds deposited in the registry of
the court.
Patrick filed a Motion for Suspensive Appeal, seek­
ing review of the June 18, 2018 judgment. The trial
court granted the motion on June 26, 2018. Thereafter,
Allen filed a supervisory writ with this Court seeking
review of the Order granting a suspensive appeal in
this matter, but this Court denied writs on August 15,
2018. Quantum Resources Management, L.L.C. v. Pi­
rate Lake Oil Corp., 18-C-417 (La. App. 5 Cir. 8A 5/18)
(unpublished writ disposition).
On October 25, 2018, Allen filed a Motion to Dis­
miss Lodged Appeal in this Court. We now address
whether the judgment at issue is subject to review un­
der our appellate jurisdiction.
La. C.C.P. art. 2083 provides that a final judgment
is appealable in all causes in which appeals are given by
law. This article further provides that an interlocutory

App. 5
judgment is appealable only when expressly provided
by law. Bank of New York v. Holden, 15-466 (La. App. 5
Cir. 12/23/15), 182 So.3d 1206, 1208; Holthausen u.
DMartino, L.L.C., 11-561 (La. App. 5 Cir. 1/4/12). 86
So.3d 639, 642. A final judgment is a judgment that
“determines the merits in whole or in part,” and an in­
terlocutory judgment is one that “does not determine
the merits but only preliminary matters in the course
of the action. La, C.C.P. art. 1841; Bank of New York,
182 So.3d at 1208.
In the present case, the trial court’s judgment or­
dering the Clerk of Court to disburse all funds remain­
ing in the registry of the court to Allen did not
determine the merits of this litigation in whole or in
part. Rather, it ordered action pursuant to and in ac­
cordance with this Court’s prior determination of the
merits. Thus, the judgment at issue is not a final judg­
ment.
Patrick argues that this Court has already deter­
mined that the judgment is final and appealable, be­
cause this Court denied Allen’s writ application
seeking review of the trial court’s order granting Pat­
rick a suspensive appeal. However, a writ denial and
the reasons therefor are not authoritative and do not
make law. Leblanc v. 1555 Poydras Corporation, 14-610
(La. App. 4 Cir. 12/17/14), 156 So.3d 1222, 1226, writ
denied, 15-82 (La. 4/2/15), 163 So.3d 796. The denial of
supervisory review is merely a decision not to exercise
the extraordinary powers of supervisory jurisdiction,
and does not bar reconsideration of the same question.
Bezou v. Bezou, 15-1879 (La. App. 1 Cir. 9/16/16), 203

App. 6
So.3d 488, 494, writ denied, 16-1869 (La. 12/5/16), 210
So.3d 814; Johnson v. Folse, 07-1031 (La. App. 5 Cir.
5/27/08), 986 So.2d 110, writ denied, 08-1377 (La.
9/26/08), 992 So.2d 991.
After further review of this matter, we conclude
that the judgment at issue rs not a final judgment and
thus, it is not appealable. Accordingly, because we lack
appellate jurisdiction in this matter, Allen’s Motion to
Dismiss Appeal is hereby granted, and this appeal is
dismissed.
MOTION TO DISMISS GRANTED:
APPEAL DISMISSED

App. 7
APPENDIX B
QUANTUM RESOURCES
MANAGEMENT, L.L.C.
AND MILAGRO
PRODUCING, L.L.C.

NO. 18-C-417

VERSUS

STATE OF LOUISIANA

FIFTH CIRCUIT
COURT OF APPEAL

PIRATE LAKE OIL
CORPORATION LTD, A
LOUISIANA CORPORATION;
ZODIAC CORPORATION
LTD, A LOUISIANA
CORPORATION; SALZER
AND RAMOS ENTERPRISES
LTD; A LOUISIANA
CORPORATION; GEORGE J.
MAYRONNE, JR; AGATHA
B. MAYRONNE HAYDEL;
AGATHA B MAYRONNE;
SUCCESSION OF OSWALD
HARRY MAYRONNE;
PHYLLIS BRIDGEWATER;
HUEY J. MAYRONNE;
JOSEPH K. HANDLIN H;
ALAN KENT JONES;
JENNIFER ELIZABETH
JONES; PATRICK KENT
LINDSEY JONES; AND
JACQUELINE A.L. JONES
August 15, 2018
Susan Buchholz
First Deputy Clerk

i(

App. 8
IN RE ALAN KENT JONES
APPLYING FOR SUPERVISORY WRIT
FROM THE TWENTY-FOURTH JUDICIAL
DISTRICT COURT, PARISH OF JEFFERSON,
STATE OF LOUISIANA, DIRECTED TO THE
HONORABLE HENRY G. SULLIVAN, JR.,
DIVISION “M”, NUMBER 686-816
Panel composed of Judges
Susan M. Chehardy, Mare E. Johnson,
and Ellen Shiver Kovach, Pro Tempore
WRIT DENIED
A concursus contemplates a proceeding which
leads to a single judgment adjudicating all issues be­
tween the parties. Rehab. Concepts Plus, Inc. v. Wills,
42,400 (La. App. 2 Cir. 10/10/07), 968 So. 2d 262, 266.
Generally, the rules applicable to an ordinary proceed­
ing apply, so far as practicable, to a concursus proceed­
ing. La. C. C. P. art. 4662. Accordingly, we do not find
error in the trial court’s grant of a suspensive appeal.
Additionally, Relator’s request for sanctions is denied.
Gretna, Louisiana, this 15th day of August, 2018.
ESK
SMC
MEJ

App. 9
APPENDIX C
TWENTY-FOURTH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON
STATE OF LOUISIANA
DIVISION: M

No: 686-816

QUANTUM RESOURCES
MANAGEMENT LLC, Et A1
vs.
PIRATE LAKE OIL CORPORATION, Et A1
FILED:___________

_________________
DEPUTY CLERK

JUDGMENT
Considering the attached Motion to Disburse Funds
in the Registry of the Court by Allen Kent Jones and the
Memorandum in Support, and pursuant to Quantum
Res. Mgmt., L.L.C. v. Pirate Lake Oil Corp., 12-256 (La.
App. 5 Cir. 11/13/12), 105 So. 3d 867, 874, writ denied,
2013-0084 (La. 3/8/13), 109 So. 3d 361,"... confirming
that [Allen Kent Jones], as usufructuary, is entitled to
the remaining mineral proceeds deposited into the reg­
istry of the court in proportion to the naked owners’
interest in and to the subject property.”:
IT IS ORDERED, ADJUDGED, AND DE­
CREED that the Clerk of Court shall disburse all
funds remaining in the registry of the Court in this
proceeding (those funds representing Patrick Kent
Lindsey Jones’ naked ownership interest in Lots 1-5

App. 10
of the Third Jefferson Drainage District of Jefferson
Parish, Louisiana), including any interest accrued
thereon, to Allen Kent Jones, said disbursement to be
delivered to R. Lee Eddy, III, Louisiana Bar #5270, the
attorney of record for Allen Kent Jones, and that said
attorney shall present the Clerk of Court with a receipt
in exchange for the disbursement.
IT IS FURTHER ORDERED, ADJUDGED,
AND DECREED that upon receiving the disburse­
ment, R. Lee Eddy, III shall transfer .or deliver the
funds to Allen Kent Jones in any manner which Allen
Kent Jones designates.
Gretna, Louisiana, this 18th day of June. 2018.
/s/ Henry G. Sullivan, Jr._____
JUDGE
HENRY G. SULLIVAN, JR.

App. 11
APPENDIX D
The Supreme Court of the State of Louisiana
QUANTUM RESOURCES
MANAGEMENT, L.L.C., AND
MILAGRO PRODUCING, L.L.C

NO. 2019-C-0487

VS.
PIRATE LAKE OIL CORP., ET AL
IN RE: Patrick Kent Lindsey Jones; - Defendant; Ap­
plying For Writ of Certiorari and/or Review, Parish of Jef­
ferson, 24th Judicial District Court. Div. M, No. 686-816;
to the Court of Appeal, Fifth Circuit, No. 18-CA-589;
May 20, 2019
Denied.
BJJ
JLW
GGG
MRC
JDH
SJC
JTG
Supreme Court of Louisiana
May 20, 2019
/s/ [Illegible]_____________
Clerk of Court
Deputy
For the Court

